               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-00026-314




    Community Based Outpatient 

           Clinic Reviews 

                  at 

  James A. Haley Veterans’ Hospital 

             Tampa, FL 





September 18, 2013

                     Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                  CBOC Reviews at James A. Haley Veterans’ Hospital



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       MH       mental health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                CBOC Reviews at James A. Haley Veterans’ Hospital



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        4


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 8 Director Comments ...............................................................................                    12

  B. James A. Haley Veterans’ Hospital Director Comments ....................................                                    13

  C. OIG Contact and Staff Acknowledgments .........................................................                             16

  D. Report Distribution .............................................................................................           17





VA OIG Office of Healthcare Inspections
                                                CBOC Reviews at James A. Haley Veterans’ Hospital



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of July 22, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name               Location
                  James A. Haley           New Port Richey         New Port Richey, FL
       8
                 Veterans’ Hospital        Zephyrhills             Zephyrhills, FL
                                     Table 1. Sites Inspected

Review Results: We made recommendations in two review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the

respective CBOC managers, should take appropriate actions to: 


   Ensure that pneumococcal vaccines are administered when indicated. 


   Ensure that clinicians document all required pneumococcal vaccine administration 

    elements and that compliance is monitored.

	 Ensure that fire drills are completed at the Zephyrhills CBOC as required.

	 Ensure that signage is installed at the New Port Richey and Zephyrhills CBOCs to
   clearly identify the location of fire extinguishers.

	 Ensure that patient privacy is maintained as required at the New Port Richey and
   Zephyrhills CBOCs.



VA OIG Office of Healthcare Inspections                                                        i
                                          CBOC Reviews at James A. Haley Veterans’ Hospital


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A-B,
pages 12–15, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                  JOHN D. DAIGH, JR., M.D.
                                                 Assistant Inspector General for
                                                      Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                  ii
                                                       CBOC Reviews at James A. Haley Veterans’ Hospital



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                          CBOC Reviews at James A. Haley Veterans’ Hospital


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                  2
                                                                                                    CBOC Reviews at James A. Haley Veterans’ Hospital



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                      Uniques,             Visits,
VISN            Parent Facility                    CBOC Name                     Locality6                                                CBOC Size9
                                                                                                      FY 20127            FY 20128
                                                   Brooksville
                                                                                   Urban                6,322              48,339             Large
                                                (Brooksville, FL)
                                                    Lakeland
                                                                                   Urban                9,103              61,708             Large
               James A. Haley                    (Lakeland, FL)
    8
              Veterans’ Hospital                New Port Richey
                                                                                   Urban                14,845            194,749          Very Large
                                              (New Port Richey, FL)
                                                   Zephyrhills
                                                                                   Urban                3,238              15,866            Mid-Size
                                                (Zephyrhills, FL)
                                                                Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).




VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                        CBOC Reviews at James A. Haley Veterans’ Hospital



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou
(“Pap”) test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
                               Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 35 patients who received a cervical cancer screening at the James A. Haley
Veterans’ Hospital’s CBOCs. Generally, the CBOCs assigned to the James A. Haley
Veterans’ Hospital were compliant with the review areas; therefore, we made no
recommendations.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or

10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

13
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                         CBOC Reviews at James A. Haley Veterans’ Hospital


near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked, as NC needed improvement. Details regarding the findings follow the table.

          NC                                       Areas Reviewed
                       Staff screened patients for the tetanus vaccination.
                       Staff administered the tetanus vaccine when indicated.
                       Staff screened patients for the pneumococcal vaccination.
           X           Staff administered the pneumococcal vaccine when indicated.
           X           Staff properly documented vaccine administration.
                       Managers developed a prioritization plan for the potential occurrence of
                       vaccine shortages.
                                             Table 4. Vaccinations

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one. For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of seven patients with pre-
existing conditions who received their first vaccine prior to the age of 65. We did not
find documentation in any of the EHRs indicating that a second pneumococcal
vaccination had been administered.

Documentation of Pneumococcal Vaccination.               Federal Law requires that
documentation for administered vaccines include specific elements, such as the vaccine
manufacturer and lot number of the vaccine used.14 We reviewed the EHRs of
25 patients who received pneumococcal vaccine administration at the parent facility or
its associated CBOCs and did not find documentation of all the required information
related to pneumococcal vaccine administration in 13 of the EHRs.

Recommendations

1. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.


14
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                                 5
                                          CBOC Reviews at James A. Haley Veterans’ Hospital


2. We recommended that managers ensure that clinicians document all required
pneumococcal vaccine administration elements and that compliance is monitored.




VA OIG Office of Healthcare Inspections                                                  6
                                                       CBOC Reviews at James A. Haley Veterans’ Hospital



                                    Onsite Reviews 

                            Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                             New Port Richey                        Zephyrhills

     VISN                                             8                                  8

                                               James A. Haley                      James A. Haley
     Parent Facility
                                              Veterans’ Hospital                  Veterans’ Hospital
                                        Licensed Clinical Social Worker           Nurse Practitioner
                                               Nurse Practitioner              Primary Care Physician
                                              Physician Assistant                    Psychiatrist
     Types of Providers                                                             Psychologist
                                            Primary Care Physician
                                                 Psychiatrist
                                                 Psychologist

     Number of MH Uniques, FY 2012                  4,207                               624

     Number of MH Visits, FY 2012                   25,539                              3,257

     MH Services Onsite                              Yes                                Yes

                                                 Cardiology                             None
                                                   Dental
                                                Dermatology
     Specialty Care Services Onsite            Gastrointestinal
                                                 Optometry
                                                  Podiatry
                                                    WH
                                              Electrocardiogram                   Electrocardiogram
                                                 Laboratory                          Laboratory
     Ancillary Services Provided                   Nutrition
     Onsite                                       Pharmacy
                                                 Prosthetics
                                                  Radiology
                                                Dermatology                         Dermatology
                                               Gastrointestinal                        MOVE!
                                                  MOVE!15                 Care Coordination Home Telehealth
     Tele-Health Services
                                                     Pain
                                             Speech Pathology
                                      Care Coordination Home Telehealth
                                        Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                                       7
                                               CBOC Reviews at James A. Haley Veterans’ Hospital


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                                          Table 6. C&P

16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                       8
                                               CBOC Reviews at James A. Haley Veterans’ Hospital




         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOC identified, as NC needed improvement. Details regarding the findings follow the
table.

         NC                                       Areas Reviewed
                        The CBOC was Americans with Disabilities Act-compliant,
                        including parking, ramps, door widths, door hardware, restrooms,
                        and counters.
                        The CBOC was well maintained (e.g., ceiling tiles clean and in
                        good repair, walls without holes, etc.).
                        The CBOC was clean (walls, floors, and equipment are clean).
                        Material safety data sheets were readily available to staff.
                        The patient care area was safe.
                        Access to fire alarms and fire extinguishers was unobstructed.
                        Fire extinguishers were visually inspected monthly.
                        Exit signs were visible from any direction.
     Zephyrhills        Fire drills were completed annually.
                        There was evidence of fire drills occurring at least annually.
  New Port Richey       Fire extinguishers were easily identifiable.
    Zephyrhills
                        There was evidence of an annual fire and safety inspection.
                        There was an alarm system or panic button installed in high-risk
                        areas as identified by the vulnerability risk assessment.
                        The CBOC had a process to identify expired medications.
                        Medications were secured from unauthorized access.
  New Port Richey       Privacy was maintained.
    Zephyrhills
                        Patients’ personally identifiable information was secured and
                        protected.



VA OIG Office of Healthcare Inspections                                                       9
                                                      CBOC Reviews at James A. Haley Veterans’ Hospital


          NC                                Areas Reviewed (continued)
                          Laboratory specimens were transported securely to prevent
                          unauthorized access.
                          Staff used two patient identifiers for blood drawing procedures.
                          Information Technology security rules were adhered to.
                          There was alcohol hand wash or a soap dispenser and sink
                          available in each examination room.
                          Sharps containers were less than 3/4 full.
                          Safety needle devices were available for staff use (e.g., lancets,
                          injection needles, phlebotomy needles).
                          The CBOC was included in facility-wide EOC activities.
                                               Table 7. EOC

Fire Safety. The Joint Commission requires fire drills be conducted at least annually.17
The Zephyrhills CBOC exceeded the 12-month requirement for completing fire drills.
Fire Extinguishers. The National Fire Protection Association requires identification of
fire extinguisher locations when they are obscured from view.18 The New Port Richey
and Zephyrhills CBOCs had no signage identifying the location of fire extinguishers at
three locations within each CBOC.
Patient Privacy. The Joint Commission requires that patients’ right to privacy be
respected.19 The New Port Richey did not provide privacy curtains in examination
rooms and placed examination tables with the feet facing the entry door. The
Zephyrhills CBOCs placed examination tables with the feet facing the entry door.

Recommendations

3. We recommended that managers ensure that fire drills be completed at the
Zephyrhills CBOC as required.
4. We recommended that managers ensure that signage is installed at the New Port
Richey and Zephyrhills CBOCs that clearly identifies fire extinguisher locations.
5. We recommended that managers ensure that patient privacy is maintained as
required at the New Port Richey and Zephyrhills CBOCs.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.20 Table 8 shows the areas
reviewed for this topic.



17
   The JC Hospital Accreditation Program Manual 2009 Edition, Standard EC.02.03.01, and EC.02.03.03 (EP5).

18
   National Fire Protection Association, Standard for Portable Fire Extinguishers, 10.6.1.3.3.1. 

19
   The JC Hospital Accreditation Program Manual 2009, Edition, Standard RI.01.01.01 (EP7). 

20
   VHA Handbook 1006.1. 



VA OIG Office of Healthcare Inspections                                                                       10
                                              CBOC Reviews at James A. Haley Veterans’ Hospital


        NC                                      Areas Reviewed
                     There was a local medical emergency management plan for this
                     CBOC.
                     The staff articulated the procedural steps of the medical emergency
                     plan.
                     The CBOC had an automated external defibrillator onsite for cardiac
                     emergencies.
                     There was a local MH emergency management plan for this CBOC.
                     The staff articulated the procedural steps of the MH emergency
                     plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                     11
                                             CBOC Reviews at James A. Haley Veterans’ Hospital
                                                                                 Appendix A
                            VISN 8 Director Comments



               Department of
               Veterans Affairs                               Memorandum


       Date:           September 4, 2013

       From:           Director, VISN 8 (10N8)

       Subject:        CBOC Reviews at James A. Haley Veterans’ Hospital

       To:             Director, Bay Pines       Regional   Office   of   Healthcare
                       Inspections (54SP) 


                       Acting Director, Management Review Service (VHA 10AR 

                       MRS OIG CAP CBOC) 




       1. 	 I have reviewed and concur with the findings and recommendations in
           the report of the OIG CBOC.

       2. Corrective action plans have been established with planned completion
          dates, as detailed in the attached report.




           Joleen Clark, MBA, FACHE




VA OIG Office of Healthcare Inspections                                                    12
                                             CBOC Reviews at James A. Haley Veterans’ Hospital
                                                                                 Appendix B
     James A. Haley Veterans’ Hospital Director Comments



               Department of
               Veterans Affairs                               Memorandum


       Date:           August 28, 2013

       From:           Director, James A. Haley Veterans’ Hospital (673/00)

       Subject:        CBOC Reviews at James A. Haley Veterans’ Hospital

       To:             Director, VISN 8 Sunshine Network (10N8)



       1. 	 I have reviewed and concur with the findings and recommendations in
           the report of the OIG CBOC review.

       2. Corrective action plans have been established with planned completion
          dates, as detailed in the attached report.




VA OIG Office of Healthcare Inspections                                                    13
                                            CBOC Reviews at James A. Haley Veterans’ Hospital
                                                                                Appendix C


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

Concur

Target date for completion: November 13, 2013

Facility Response: On June 17, 2013, the Clinical Applications Coordinators
implemented a clinical reminder template with enhanced reminder logic that supports
timely re-vaccination for those patients who received their first vaccine prior to the age
of 65. Training on the new clinical reminder template was conducted in June 2013 to
nursing staff and July 2013 to providers. The facility will monitor the status of proper
documentation of pneumococcal vaccinations for three months or until greater than 90
percent compliance is achieved and report monthly to the Performance Improvement
Committee and document in the minutes.

2. We recommended that managers ensure that clinicians document all required
pneumococcal vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: November 13, 2013

Facility response:     On June 17, 2013, the Clinical Applications Coordinators
implemented a clinical reminder template to include all elements required for proper
documentation of vaccinations. This clinical reminder template was incorporated into
vaccination documentation after the time period of Electronic Health Record review
performed by OIG. Training on the new clinical reminder template was conducted in
June 2013 to nursing staff and July 2013 to providers. The facility will monitor the
status of proper documentation of pneumococcal vaccinations for three months or until
greater than 90 percent compliance is achieved and report monthly to the Performance
Improvement Committee and document in the minutes.

3. We recommended that managers ensure that fire drills be completed at the
Zephyrhills CBOC as required.

Concur

Target date for completion: September 12, 2013



VA OIG Office of Healthcare Inspections                                                   14
                                           CBOC Reviews at James A. Haley Veterans’ Hospital
                                                                               Appendix C


Facility response: A listing of all fire drill dates has been developed for the year and
ensures drills are completed with frequency of every 12 months (within +/- 30 days of
the previous drill date). The next fire drill for the Zephyrhills CBOC is scheduled for
September 3, 2013 (prior drill done September 28, 2012). Fire drill frequency will be
monitored quarterly at EOC Committee and documented in the minutes.

4. We recommended that managers ensure that signage is installed at the New Port
Richey and Zephyrhills CBOCs that clearly identifies fire extinguisher locations.

Concur

Target date for completion: Completed on July 25, 2013

Facility response: Signage was installed at the New Port Richey and Zephyrhills
CBOCs to clearly identify the location of fire extinguishers. Completion of this
recommendation will be reported to the EOC Committee and documented in the
minutes.

5. We recommended that managers ensure that patient privacy is maintained as
required at the New Port Richey and Zephyrhills CBOCs.

Concur

Target date for completion: December 13, 2013

Facility response:

   a. 	Privacy curtains were installed in all exam suites at the New Port Richey (NPR)
       CBOC as of August 20, 2013. (completed)
   b. The NPR CBOC performed a review of all examination tables to assess for
       appropriate positioning. Only one examination table was found to have the feet
       facing the entry door. This table was appropriately repositioned on August 23,
       2013. (completed)
   c. 	The Zephyrhills CBOC staff identified five (5) examination tables that have the
       feet facing the entry door. (completed) The COR of the CBOC will coordinate
       with the owner of the leased building to have those examination tables
       repositioned so the feet are not facing the entry door.
   d. 	 The completion of these items will be reported to the EOC committee and
       documented in the minutes.




VA OIG Office of Healthcare Inspections                                                  15
                                             CBOC Reviews at James A. Haley Veterans’ Hospital
                                                                                 Appendix C




                 OIG Contact and Staff Acknowledgments
                        For more information about this report, please contact the OIG
Contact
                        at (202) 461-4720.
Onsite                  Charles H. Cook, MHA, Team Leader
Contributors            Darlene Conde-Nadeau, MSN, ARNP
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Karen McGoff-Yost, MSW, LCSW
                        Jackelinne Melendez, MPA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Carol Torczon, MSN, ACNP
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    16
                                              CBOC Reviews at James A. Haley Veterans’ Hospital
                                                                                  Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 8 (10N8)
Director, James A. Haley Veterans’ Hospital (673/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Bill Nelson, Marco Rubio
U.S. House of Representatives: Gus Bilirakis, Kathy Castor


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     17
